IN THE
SUPREME COURT OF THE UNITED STATES

TERRY REED,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Robert L. Thomas, Assistant Federal Defender for the Western District of Tennessee, do
swear or declare that on this date, July 23rd, 2021, as required by Supreme Court Rule 29, I have
filed electronically via this Court’s electronic filing system and also served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Elizabeth Prelogar, Acting Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., NW
Washington, D. C. 20530-0001
Naya Bedini and Wendy K. Cornejo, Assistant U.S. Attorneys
167 North Main St., Suite 800
Memphis, TN 38103
With a courtesy copy also e-mailed this same date to the Solicitor General, at:
SUPREMECTBRIEFS@USDOJ.GOV.

I declare under penalty of perjury that the foregoing is true and correct.
Executed this 23rd day of July, 2021.
DORIS RANDLE HOLT
FEDERAL DEFENDER
/s Robert L. Thomas
By: Robert L. Thomas
Court-Appointed Counsel for Petitioner

2

